<html>
<title> - NOMINATIONS OF ROBERT D. JAMISON AND W. ROSS ASHLEY III</title>
<body><pre>[Senate Hearing 110-528]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 110-528
 
        NOMINATIONS OF ROBERT D. JAMISON AND W. ROSS ASHLEY III

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

  ROBERT D. JAMISON TO BE UNDER SECRETARY FOR NATIONAL PROTECTION AND 
  PROGRAMS, AND W. ROSS ASHLEY III TO BE ASSISTANT ADMINISTRATOR FOR 
    GRANT PROGRAMS OF THE FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                    DEPARTMENT OF HOMELAND SECURITY

                               __________

                            NOVEMBER 9, 2007

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                     U.S. GOVERNMENT PRINTING OFFICE
38-983 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                   Kristine V. Lam Research Assistant
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
Prepared statements:
    Senator Warner...............................................     4
    Senator Collins..............................................    19
    Senator Akaka................................................    19

                               WITNESSES
                        Friday, November 9, 2007

Robert D. Jamison to be Under Secretary for National Protection 
  and Programs, U.S. Department of Homeland Security.............     3
W. Ross Ashley III to be Assistant Administrator for Grant 
  Programs of the Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     5

                     Alphabetical List of Witnesses

Ashley, W. Ross III:
    Testimony....................................................     5
    Prepared statement...........................................   109
    Biographical and professional information....................   114
    Responses to pre-hearing questions...........................   123
    Letter from U.S. Office of Government Ethics.................   160
    Responses to post-hearing questions..........................   161
Jamison, Robert D.:
    Testimony....................................................     3
    Prepared statement...........................................    21
    Biographical and professional information....................    25
    Responses to pre-hearing questions...........................    32
    Letter from U.S. Office of Government Ethics.................    68
    Responses to post-hearing questions..........................    69


        NOMINATIONS OF ROBERT D. JAMISON AND W. ROSS ASHLEY III

                              ----------                              


                        FRIDAY, NOVEMBER 9, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:07 a.m., in 
Room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senator Lieberman.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
morning to everyone. Thanks for being here at this early hour, 
although probably I was up later than any of you last night 
because we were here voting until after 11 p.m.
    We are here to consider nominees to two very important 
positions at the Department of Homeland Security. The first is 
Robert D. Jamison, who has been nominated to be Under Secretary 
of the Department of Homeland Security with responsibility for 
the National Protection and Programs Directorate (NPPD). Second 
is W. Ross Ashley III, nominated to be Assistant Administrator 
for FEMA in charge of Grant Programs.
    Both of these jobs cover critical aspects of our homeland 
security, a wide range from cyber security to ensuring that our 
State and local partners have the resources they need on the 
front lines of our defense against all disasters, whether 
natural or man-made.
    If confirmed, these two nominees before us today will have 
to work closely with our Nation's first responders, with the 
private sector, and with State and local officials to provide 
overall strategic guidance and support. I would say that as 
this Committee--from which the original proposal to create the 
Department of Homeland Security came--continues our oversight 
of the Department, I feel some satisfaction that we have made 
substantial progress in improving the capacity of the Federal 
Government to both prevent and respond to disasters, whether 
natural or terrorist. But I think we all agree that we have 
some way to go to get us to where we need to be in this threat 
environment. And it is in that cooperative spirit that I look 
forward to this hearing.
    [The prepared statement of Senator Lieberman follows:]

                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Thank you all for coming today. We are here to consider nominees to 
two important positions at the Department of Homeland Security. The 
first is Robert D. Jamison, who has been nominated to be Under 
Secretary of DHS, with responsibility for the National Protection and 
Programs Directorate (NPPD), followed by W. Ross Ashley III, nominated 
to be Assistant Administrator for FEMA in charge of grant programs.
    Both jobs cover critical aspects of our homeland security from 
cyber security to ensuring that our State and local partners have the 
resources they need on the front lines of our defense against all 
disasters, whether natural or man-made.
    The post Mr. Jamison has been nominated to is relatively new and 
consists of a medley of responsibilities, including cyber security, 
infrastructure protection, foreign traveler screening, emergency 
communications, and risk analysis.
    I have several concerns that I'd like to discuss with Mr. Jamison. 
The Department continues to work with the private sector to ensure risk 
assessments are performed for the Nation's most critical 
infrastructure, although, we are behind in this effort. The process 
must be sped up as experience tells us terrorists are likely to target 
large structures and systems that will cause maximum havoc.
    The Department must also move ahead expeditiously with the new 
chemical site security program, and must ensure that the program is 
sufficiently rigorous to significantly reduce this homeland security 
vulnerability.
    The Office of Infrastructure Protection is heavily dependent upon 
outside contractors. Half the office staff is made up of contractors. 
As a matter of fact, 42 percent of the grants program directorate is 
also made up of contractors--and they are performing key functions like 
helping figure out the methodology by which we allocate grants. The 
Government Accountability Office recently testified before this 
Committee that overdependence on contractors deprives the government of 
the institutional knowledge it needs to perform its functions over the 
long run. I will want to know how Mr. Jamison and Mr. Ashley plan to 
prevent this from happening within their areas of authority at DHS.
    We also face serious challenges protecting government computer 
systems and databases, another area that will fall within Mr. Jamison's 
portfolio. With persistent vacancies in key positions, and all too 
frequent reports of missing computers and lost equipment, everyone 
agrees we have not made sufficient progress, given the threats that 
exist to our cyber systems.
    I am pleased, however, that the Department is now busy working on 
how to address many of these cyber security problems in a coordinated 
way. Just this week, the Administration announced its new Cyber 
Initiative to strengthen the protection of all government systems and 
databases. The program is still under development, and of course much 
about it remains classified, but I look forward to hearing as much 
detail as can be discussed in a public setting.
    The position to which Mr. Ashley has been nominated--Assistant FEMA 
Administrator, heading the Grant Programs Directorate--is of special 
interest to me for a couple of reasons. I have made it a point over the 
past 4 years to work as hard as I could to obtain extra funding for our 
under-trained and under-equipped police officers, firefighters, and 
emergency medical workers who are on the front lines of the disasters 
that strike American communities.
    In February, for the fourth year in a row, the President's FY 2008 
budget request for the Department of Homeland Security would have cut 
crucial support for these brave men and women--slashing overall 
homeland security grant funding by a staggering 40 percent. That is 
unconscionable to me and would have been tantamount to disarming in the 
middle of a war. I hope you recognize the ongoing needs of first 
responders, Mr. Ashley, and I look forward to hearing your views on 
grant budgeting.
    I am also keenly interested in grants because of legislation we 
passed earlier this year to fulfill most of the remaining 9/11 
Commission recommendations. That measure, now signed into law, calls 
for substantial funding increases for training, planning, and new 
equipment for first responders.
    Furthermore, we finally settled a year-long dispute over how to 
dispense homeland security grants in a way that would provide even more 
anti-terrorism funding on the basis of risk, while giving each State a 
smaller percentage of guaranteed funding for some basic level of 
preparedness. We also authorized more funding for key programs designed 
to help all States prepare for natural disasters and other threats.
    Implementation of this provision is very important to me, Mr. 
Ashley, so I look forward to hearing your plans.
    If confirmed, these two nominees before us today will have to work 
closely with our Nation's first responders, with the private sector, 
and with State and local officials to provide overall strategic 
guidance. We have made important strides, but still have much to do to 
protect our critical infrastructure, while also preparing ourselves for 
the next disaster that inevitably will come. Thank you.

    Senator Liberman. I will have several questions to ask 
after you make your opening statements, which I hope will allow 
us to have a conversation about some of those issues.
    Both nominees have filed responses to a biographical and 
financial questionnaire. They have answered pre-hearing 
questions submitted by the Committee and had their financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made a part of the hearing 
record with the exception of the financial data, which are on 
file and available for public inspection in the Committee 
offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Mr. 
Jamison and Mr. Ashley, would you please stand and raise your 
right hand?
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Jamison. I do.
    Mr. Ashley. I do.
    Chairman Lieberman. Thank you. Please be seated.
    We will begin with Mr. Jamison. I understand you have 
family here with you today, and I would be delighted to have 
you introduce them to us, and then proceed with your statement.
    Mr. Jamison. Thank you, Mr. Chairman. My wife, Meg, and my 
daughters, Elizabeth and Caroline, are here. I would like to 
thank them for their support not only today but every day 
leading up to it.
    Chairman Lieberman. You know, all the tough questions I had 
prepared, looking at those two adorable girls, I think I am 
just going to throw them out. [Laughter.]
    Mr. Jamison. Thank you, sir.
    Chairman Lieberman. Go right ahead.

 TESTIMONY OF ROBERT D. JAMISON,\1\ TO BE UNDER SECRETARY FOR 
 NATIONAL PROTECTION AND PROGRAMS, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Jamison. Mr. Chairman, thank you for the opportunity to 
appear before you today. I am very grateful to President Bush 
and Secretary Chertoff for their confidence in my ability to 
lead the National Protection and Programs Directorate. I 
believe in the missions of the Department of Homeland Security 
and the Directorate and know they are critical to our Nation's 
security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jamison appears in the Appendix 
on page 21.
---------------------------------------------------------------------------
    Serving in the Federal Government with thousands of people 
who take part in the many different aspects of securing the 
Nation, its people, and its critical assets and systems has 
been an honor. I appreciate the opportunity I have had in the 
past few weeks to communicate with the Committee about my 
professional experience and work that I have done in the 
public, private, and not-for-profit sectors.
    In my roles at the Department of Transportation and the 
Department of Homeland Security, as well as in my positions at 
the American Red Cross and United Parcel Service, I have relied 
on three fundamental principles that I learned very early in my 
career: Have a commitment to attract and retain skilled people, 
focus on outcome-based results, and instill and insist on a 
culture of accountability and integrity. Those are the 
fundamentals I have focused on since I was named Deputy Under 
Secretary of NPPD in April, and those are the fundamentals I 
will continue to pursue if confirmed.
    NPPD is a diverse organization with an important cross-
cutting, binding mission of risk reduction. I believe in the 
mission and, if confirmed, would continue to strive for 
improvement.
    I know that you and many of the Members have concerns about 
the stability of the Directorate and question if we are 
prepared for a transition of administrations. I firmly believe 
that an overarching goal for the Directorate must be its 
successful growth and stabilization. For that reason, the 
maturation of the Directorate must be a top priority that I 
will continue to pursue if confirmed.
    One issue with relevance to maturing the Directorate is 
NPPD's use of contractor staff. As we evaluate this usage and 
convert contract staff to full-time Federal staff where 
appropriate, we will strike the balance that makes the 
Directorate more efficient and ensures that we have the skills 
necessary to position the Directorate for future success.
    NPPD's broad and important portfolio demands dedicated 
stewardship. If confirmed, I would commit to strengthening an 
organization that works closely with the Department's security 
partners and stakeholders across the country. NPPD would also 
continue to be an organization that respects and relies on the 
direction and guidance provided by the Administration and 
Congress. If confirmed, I intend to work closely with and draw 
from all the individuals and entities able to assist the 
Directorate in fulfilling its mission.
    I believe that NPPD, in addition to having a critical 
mission, is the right place to serve for those who are highly 
skilled, highly motivated, and profoundly dedicated to the 
security of our Nation. If confirmed, I will be proud to serve 
alongside the men and women of NPPD. Thank you.
    Chairman Lieberman. Thanks very much, Mr. Jamison, for that 
opening statement. I appreciate what you said.
    Mr. Ashley, I want to note for the record that Senator John 
Warner, our dear friend and colleague from Virginia, had hoped 
to be here to introduce you this morning but had a scheduling 
conflict and is unable to be here. Senator Warner has submitted 
a statement of introduction and, I might say, great praise, and 
without objection, we will place it in the record.
    [The prepared statement of Senator Warner follows:]

                  PREPARED STATEMENT OF SENATOR WARNER

    Chairman Lieberman, Senator Collins, and my other distinguished 
colleagues on the Senate's Homeland Security and Governmental Affairs 
Committee, I thank you for holding this confirmation hearing today.
    Today, I am pleased to introduce a Virginian, Ross Ashley, who has 
been nominated to serve as the Assistant Administrator for Grant 
Programs, Federal Emergency Management Agency, Department of Homeland 
Security. He is joined today with his family including his wife, 
Lauren, his daughter, Catherine, his sons Cailan and Patrick, his 
mother, Brenda Dumas, and his brother Major John Ashley. I understand 
that his youngest daughter, Caroline, is not here today.
    Mr. Ashley graduated from Tabb High School in Yorktown, Virginia, 
and subsequently earned his B.A. degree in International Studies from 
George Mason University in 1989 and M.S. in Strategic Intelligence from 
the Joint Military Intelligence College. From 1997 to 2004, Mr. Ashley 
served in the Air Force Reserves as an Intelligence Officer. He retired 
at the rank of Captain. In addition, from 1984 to 1997, Mr. Ashley 
served in the Virginia Air National Guard in Richmond, Virginia. Mr. 
Ashley has received numerous accolades for his military service.
    The job of Assistant Administrator for Federal Grant Programs is a 
critical one, tasked with responsibility of overseeing a comprehensive 
assortment of grant programs at FEMA ranging from funding for 
communications equipment for first responders to funding for the hiring 
of firefighters. Due to the breadth of FEMA's grant programs, this job 
requires an individual with significant involvement in executing 
complex grant programs. Mr. Ashley has past work experience advising 
entities participating in the Federal grant process.
    Mr. Ashley has almost 20 years of experience and expertise as an 
officer or executive at a diverse set of companies ranging from a non-
profit provider of services to individuals with disabilities to high-
tech companies. Through his various positions, including Director of 
Law Enforcement Technologies at ISX Corporation and as President and 
Chief Operating Officer at The Templar Corporation, Mr. Ashley has 
concentrated his work on information operations, strategic planning and 
execution, strategy assessment, operations analysis, team development, 
and project management which are all areas of critical expertise for a 
grant program administrator.
    I am pleased to introduce Mr. Ashley today and I urge the Committee 
to give him every appropriate consideration.

    Chairman Lieberman. Mr. Ashley, I believe you have some 
family here also. We would welcome their introduction and then 
your opening statement.
    Mr. Ashley. First off, my wife, Lauren, is here; my son, 
Cailan; daughter, Catherine; and our other son, Patrick. We 
also have a 2-year-old, Caroline, that we thought best not to 
be here today.
    Chairman Lieberman. Am I getting older or are the nominees 
getting younger? [Laughter.]
    Mr. Ashley. My mother, Brenda Dumas, is also here visiting 
from Alabama.
    Chairman Lieberman. That is great.
    Mr. Ashley. My brother, Major John Ashley; my sister-in-
law; and aunt- and uncle-in-law and cousin-in-law are here as 
well.
    Chairman Lieberman. That is great. I cannot resist one of 
my favorite one-liners, which is that somebody, noting the 
presence of your mother-in-law, somebody said to me when they 
met my mother-in-law, which is that behind every successful 
man, there is a surprised mother-in-law. [Laughter.]
    Apparently your mother-in-law agrees with that.
    Mr. Ashley. ``Shocked'' might be appropriate.
    Chairman Lieberman. OK, Mr. Ashley, go right ahead.

      TESTIMONY OF W. ROSS ASHLEY III\1\ TO BE ASSISTANT 
   ADMINISTRATOR FOR GRANT PROGRAMS OF THE FEDERAL EMERGENCY 
      MANAGEMENT AGENCY, U.S. DEPARTMENT HOMELAND SECURITY

    Mr. Ashley. Good morning, Mr. Chairman. My name is Ross 
Ashley, and I would like to thank Senator Warner for his 
statement of support as well.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ashley appears in the Appendix on 
page 109.
---------------------------------------------------------------------------
    I am appearing before you today as the nominee for 
Assistant Administrator for Grant Programs at the Federal 
Emergency Management Agency within the Department of Homeland 
Security. It is a great honor to be nominated by the President 
for this position and to have the opportunity to answer the 
questions as you consider my nomination. I cannot express how 
honored I am to be nominated for a position that will continue 
to further preparedness, response, and recovery capabilities of 
our State, local, and tribal partners and of our Nation as a 
whole.
    I would like to begin today by thanking my wife, Lauren, 
for her patience and encouragement over the last 10 years as 
our family has grown. As each of you know, public service 
requires dedication and commitment from the whole family.
    Also with us today are our oldest daughter and two sons--
Catherine, Cailan, and Patrick--who inspire me with the 
eagerness with which they approach the start of every day. Our 
2-year-old daughter, Caroline, thought best to hold down the 
fort while the rest of the family came to the hearing today. My 
mother is here from Alabama, and I would like to thank her for 
making the trip to be with us.
    I have had the privilege of growing up in a family full of 
public servants. My father retired from serving both in the 
U.S. Air Force and the National Guard, and my mother worked in 
rural Mississippi as a social worker. My brother, Major John 
Ashley, is here today from serving on active duty in the 
National Guard. John is the true picture of the citizen 
soldier, having piloted F-16s on multiple combat deployments to 
Iraq and now preparing himself and others for deployment again 
in a new theater-based reconnaissance aircraft. John, his wife, 
Tracy, and their four children's dedication to their country is 
an inspiration to all of us who know them.
    If confirmed as Assistant Administrator for Grant Programs, 
my responsibility will be to ensure that Federal investment 
into State, local, and tribal preparedness, response, and 
recovery capabilities provides the greatest return on 
investment for the American public. I will bring to this 
position many years of experience of military service, 
financial management, and executive leadership. I spent 20 
years in the National Guard and Reserves, serving both as an 
enlisted member and as a commissioned officer. Early in my 
National Guard career, I volunteered on a number of occasions 
to fill sandbags and to pre-position supplies and equipment in 
order to prepare for hurricanes and floods threatening the 
Commonwealth of Virginia. Immediately following September 11, 
2001, as a reserve officer I volunteered to augment active-duty 
personnel at the Pentagon, manning a 24-hour intelligence watch 
center.
    From the time I was 18 years old, the educational and 
professional opportunities afforded me in the National Guard 
have been the foundation for every endeavor in my life, and if 
confirmed, I will bring this foundation with me to this new 
challenge.
    One of the most important aspects of this position is to 
ensure that Federal investments and partnerships with State, 
local, and tribal first responders provide support to meet the 
National Preparedness Guidelines and the Target Capabilities 
List. This process requires financial experience in grant 
programs, fiscal responsibility, and accountability.
    Since 1997, I have had the opportunity to work as a 
commercial partner with State, local, and tribal first 
responders, specifically in the areas of information sharing, 
incident management, and communications interoperability. As 
the founder and president of the Templar Corporation, I worked 
with individual States and localities on regional information 
sharing grants and supported all aspects of the grants process, 
from interpretation of guidance, preparation of submission 
packages, and financial and programmatic compliance. If 
confirmed, I believe I will bring the necessary perspective of 
our State, local, and tribal partners to the execution of all 
grant programs.
    Prior to September 11, 2001, I supported the initial 
efforts to provide regional interoperable capabilities to our 
Nation's first responders. Shortly after the killing of Gianni 
Versace in 1997, it was discovered that his killer, Andrew 
Cunanan, pawned property under his real name while there was a 
nationwide manhunt underway for his apprehension. As a result 
of this and other multijurisdictional events, I worked with the 
Department of Justice and other partners to develop a real-time 
distributed information-sharing system for Broward, Brevard, 
and Monroe Counties in South Florida. Since these early 
efforts, I have had the opportunity to support similar 
interoperability efforts for both voice and data communications 
in a number of States and multi-jurisdictional regions, to 
include the National Capital Region.
    My financial management experience includes efforts with my 
business partner to mortgage our houses and start a successful 
small business, participating in complex multi-million-dollar 
corporate sales in both the commercial and nonprofit sectors, 
and leading a high-performance financial management team in the 
turn-around of a challenged nonprofit.
    As the CEO of an 1,100-person nonprofit, I was responsible 
for multiple cost centers and funding agencies at both the 
State and Federal levels that cut across all aspects of the 
lives of people with developmental disabilities. When I took 
over as CEO of the National Children's Center, the previous 
year audit included 32 findings of significant deficiency. 
Working with and leading a great team, we were able to, in one 
short year, reduce the number of auditing findings to two, 
neither of which was in the area of financial management.
    It is also critical at this point to ensure that the 
resulting organizational changes in grant programs have a 
minimum effect on our stakeholders. Over the years, working 
with States and localities, one of the common themes in grant 
programs is the need for consistency year over year. If 
confirmed, I will ensure that the transition to a one-stop shop 
for grant programs continues to fully support all of our 
stakeholders. In addition, if confirmed, I am committed to an 
effective transition to the next Administration and will ensure 
that my successor has all the tools necessary to continue the 
tremendous work already accomplished by this Congress and the 
Administration.
    Our Nation's grant programs are critical to ensure adequate 
all-hazard planning and operational capabilities for emergency 
managers, firefighters, law enforcement, medical response, and 
everyday citizens. If confirmed, I look forward to working with 
Administrator Paulison, the FEMA leadership team, across the 
Department of Homeland Security, and with all of our partners, 
continuing the efforts to develop a new FEMA and a culture of 
preparedness across our society.
    In closing, the Congress continues to support the efforts 
of our Nation's first responders and has provided the necessary 
guidelines in the Post-Katrina Emergency Reform Act of 2006 and 
the Implementing Recommendations of the 9/11 Commission Act. If 
confirmed, I welcome the opportunity to continue these efforts 
to support our Nation's first responders and respectfully ask 
this Committee to confirm my nomination to serve as Assistant 
Administrator for Grant Programs at the Federal Emergency 
Management Agency within the Department of Homeland Security.
    I want to thank you, Mr. Chairman, for the opportunity to 
appear before you, and I would be happy to answer any questions 
you may have.
    Chairman Lieberman. Thanks very much, Mr. Ashley.
    I am going to start my questioning with the standard 
questions we ask of all nominees, and in the interest of 
efficiency, I will ask them of both of you simultaneously.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Mr. Jamison. No.
    Mr. Ashley. No, sir.
    Chairman Lieberman. Thank you. Do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Jamison. No.
    Mr. Ashley. No, sir.
    Chairman Lieberman. And, finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Jamison. I do.
    Mr. Ashley. Yes, sir.
    Chairman Lieberman. Thank you very much.
    Mr. Jamison, I think what I will do is go back and forth, 
one question to each. Let me begin with the Cyber Security 
Initiative, which is a very important part of the new world of 
attack and defense.
    On Tuesday of this week, President Bush sent to Congress an 
amendment to the fiscal year 2008 budget request, reallocating 
funds to protect Federal civilian agency networks. This change 
is part of a new governmentwide effort on cyber security 
called, as you know, the Cyber Initiative. The request includes 
an increase of $115 million for cyber security within the NPPD 
at the U.S. Computer Emergency Readiness Team, also known as 
US-CERT. This increase would more than double the current 
budget of the Department for cyber security.
    I wanted to ask you whether you believe this new initiative 
will fundamentally alter the approach that the Department has 
taken toward cyber security, and in answering that question to 
the best of your ability, tell us what you think are the 
current capabilities of the Department relating to cyber 
security. And I would say that I understand that certain parts 
of the program are classified, and I respect that. But also I 
understand that many details are unclassified, and I would like 
you to speak from that base of information.
    Mr. Jamison. Yes, sir. First of all, I do believe this is a 
fundamentally new approach, but I believe it builds upon the 
capabilities that we have in US-CERT. US-CERT has a 24-by-7 
response capability and provides a valuable service to respond 
and analyze the threat environment. And I must say that we at 
DHS, as well as in the Administration, are very concerned about 
the cyber threat and the fact that attacks are more prevalent, 
more focused, and more sophisticated. And as a result----
    Chairman Lieberman. We are seeing such attacks, aren't we?
    Mr. Jamison. Yes, we are.
    Chairman Lieberman. Yes.
    Mr. Jamison. And they are more frequent. And as a result, 
we have an interagency effort that is looking differently at 
cyber security.
    But our approach and the role that DHS is going to play in 
that is really a more aggressive approach to some of the 
current capabilities that we have most fundamentally. 
Currently, we have a capability to do intrusion detection with 
an Einstein Program. We want to get much more aggressive and 
ramp that out across the Federal Government. We also want to 
look at how we are managing the security policies and standards 
across the Federal Government, and US-CERT will play a much 
more prominent role in that.
    But it really builds on fundamental capabilities. I cannot 
say enough about the technical expertise that we have in US-
CERT, and this initiative will dramatically ramp up that 
capability, add more staff to do more analysis of threats and 
allow us to respond as a government comprehensively, and have 
us have better situational awareness on what is happening 
across the dot-gov network.
    I would be very happy, as we have done with your staff, to 
give you a detailed classified briefing on some of the 
classified parts of that initiative. But to reiterate your 
first point of the question, I do think it is a fundamentally 
different approach, but it builds on our current capabilities.
    Chairman Lieberman. I appreciate it, and I would like to do 
that. Let me ask you one related question. Given that the 
majority of the cyber infrastructure is owned privately by 
industry, will this initiative also help monitor and protect 
those systems?
    Mr. Jamison. What we are talking about in the Cyber 
Initiative for 2008 is focused on the dot-gov network.
    Chairman Lieberman. Right.
    Mr. Jamison. But just as we saw recently with the 
visibility that the control system vulnerability got in the 
U.S. that we have been working on at DHS with our interagency 
partners and with the public-private partnership, we must not 
forget about the vulnerabilities to our critical infrastructure 
and the threat that exists in the cyber domain. So we are going 
to continue to work those partnerships just like we have 
through the NIP Partnership Framework, continue to roll out 
mitigation measures, and to look at that.
    But the main focus of the Cyber Initiative is to focus in 
2008 on the dot-gov networks and try to get more secure in that 
area.
    Chairman Lieberman. Good.
    Mr. Ashley, let me ask you a couple of questions related to 
the Federal Government's attempt to enhance terrorism 
prevention efforts at the State and local level. The National 
Strategy for Homeland Security says that ``State, local, and 
tribal governments which best understand their communities, 
will always play a prominent front-line role in helping to 
prevent terrorist attacks.'' And I could not agree more.
    Could you describe what steps you will take to ensure that 
State and local law enforcement are full partners in national 
prevention efforts to defeat Islamist terrorism which the 
Department and the FBI have identified as the greatest threat 
to the homeland?
    Mr. Ashley. Yes, sir. I agree wholeheartedly with your 
statement there as far as the people on the ground that 
understand best our communities are State, local, and tribal 
first responders. The efforts that will continue to make a big 
difference in this area are cross-discipline fusion centers for 
the law enforcement community. And when I say cross-discipline, 
I am also including the rest of the first responder community 
there because I think it is very important for the continued 
efforts of preparedness planning to look across all 
disciplines, be it emergency managers, firefighters, law 
enforcement, or medical response.
    Continuing those planning initiatives, many people say that 
planning is critical and the plan is worthless. I think that as 
we enhance the fusion center efforts and as we enhance planning 
capabilities across disciplines, this will begin to break down 
some of those barriers and allow people to start sharing 
information across these disciplines.
    Chairman Lieberman. That is very important. Let me go to a 
different part of it. This Committee held a hearing last week--
a very important hearing to me, and I think to the Committee--
in which local police officers from New York, Los Angeles, 
Kansas City, and Miami-Dade County testified about the 
importance of outreach and forging bonds with local Muslim-
American communities that are essential in preventing the 
spread of Islamist radicalization and extremism. But they all 
testified that they have not yet been able to use their 
homeland security grants for such efforts.
    The Implementing Recommendations of the 9/11 Commission 
Act, as we call it, provides the FEMA Administrator flexibility 
to allow State and local communities to spend homeland security 
grants on ``any appropriate activity'' relating to preventing, 
preparing for, protecting against, and responding to acts of 
terrorism.
    Will you indicate to us that you are going to do what you 
can to ensure that the upcoming grant guidance will authorize 
the use of grants by State, county, and local law enforcement 
for the kind of community outreach that I have talked about?
    Mr. Ashley. Of course, I am not aware of what is currently 
written in the fiscal year 2008 grant guidance. However, I will 
tell you that I think it is critical that outreach is conducted 
by State and local partners, and I meant that in many different 
ways, whether it is reaching out to a local Muslim community or 
whether that is reaching out to the commercial businesses that 
may have assets that are required and such like that. Also, 
from the standpoint of privacy, as we begin to stand up these 
fusion centers across the country, I think it is critical that 
community buy in to the process so there is not this vision of 
a green door that the community is unaware of what is going on. 
So I am committed to working with Administrator Paulison and 
expressing those, if confirmed for the position, yes, sir.
    Chairman Lieberman. I appreciate that. To say what you 
know, the 750,000 county, State, and local law enforcement 
people around the country, they are really a mighty force to 
implement everything we are trying to do at the Federal level 
to detect and prevent and, God forbid, have to respond to a 
terrorist attack. They seem quite ready to get at this. I was 
impressed last week that these four departments took this 
initiative on their own, and right now they are supporting it 
entirely, as far as I can determine, through locally generated 
revenues.
    There are, in fact, in my staff's investigation of this 
matter, some police departments in communities that have 
significant Muslim-American communities that are not doing any 
of this outreach, and we will talk about that. But I hope that 
you can both urge and support them getting involved in it.
    Do you have any thoughts about how you might more broadly 
involve other first responders? I am thinking particularly of 
firefighters and emergency medical personnel.
    Mr. Ashley. Sure. I think that one of the things that you 
all envisioned in this Congress when it came to putting grants 
all into one location is one of the expectations is that we 
would look across all of those grant programs to ensure the 
best possible preparedness. I think there is an opportunity 
now, with the grants being in a consolidated, one-stop-shopping 
environment, to begin looking at the guidance as it goes across 
disciplines and to continue to encourage things like the 
Regional Transit Working Group's participation on the UASI 
programs and that cross-discipline planning and coordination.
    As far as bringing the law enforcement and emergency 
managers group together, again, as we start standing up these 
fusion centers, we have the opportunity to write into grant 
guidance how those relationships will interact with emergency 
management centers across the country. A lot of this is 
unwritten and new at this point, and there are a lot of new 
cultural barriers that are beginning to come down at the grass-
roots level. And I think that by doing that at the Federal 
level, by putting everything in the same department, it also 
gives us an opportunity to organize inside of the Grant 
Programs Directorate, so there is that cross-pollination across 
those grant programs, whether it is firefighters, emergency 
managers, law enforcement, or medical response.
    Chairman Lieberman. I agree. You are coming on at an 
important time at the beginning of this reorganized function to 
make it work, so I appreciate that.
    Mr. Jamison, let me go back to you. Earlier this year, as 
you well know, DHS alerted many sectors to a vulnerability 
known as the Aurora scenario, which showed that rotating 
electrical machines used throughout critical infrastructure 
could be damaged through a remote cyber attack. This 
vulnerability, which poses a severe potential impact for many 
industries, including electric, nuclear, and water, illustrates 
the even greater potential risk that exists due to increasing 
interconnectivity between more traditional systems and the 
Internet. So let me ask you a few questions about that.
    First, do you believe that particular risk has been 
mitigated?
    Mr. Jamison. I believe we have taken a lot of risk off the 
table, and I think it is a good example of how the NIP 
Partnership Framework worked with our industry partners and our 
Federal agency partners to quickly--once our research had 
indicated there was a vulnerability, to work to develop 
mitigation measures and to roll those out. We need to continue 
to monitor the performance in the field on the implementation 
of those mitigation measures, but we started with our high-risk 
infrastructure and are confident that the industry and the 
sectors are taking action as necessary.
    Chairman Lieberman. As you probably know, some members of 
the impacted sectors said that DHS did not notify them of this 
Aurora vulnerability in a timely or consistent manner and 
failed to use the so-called Sector Coordinating Councils to 
disseminate information and seek counsel from sector experts. I 
know you know about this complaint. What did you learn from the 
Aurora scenario in terms of private sector coordination?
    Mr. Jamison. Sir, I am not familiar with that particular 
complaint. I think it may be due to the fact that we did risk 
analysis on the vulnerabilities across the sectors, and we 
engaged with certain sectors prior to other sectors.
    I think what it proved to me is that the Sector 
Coordinating Council and the partnership that we have is a 
viable model to look at managing risk in a system where 85 
percent of our infrastructure is owned by the private sector. 
Within a matter of months, once the vulnerability was verified, 
we quickly had mitigation measures in both the nuclear and the 
electrical sector and worked and had already started getting 
those mitigation measures out. We are continuing to work 
through the rest of those sectors. Several other sectors have 
engaged--I think it works. I think we need to continue to build 
upon that partnership and make sure that we strive to figure 
out better ways to continue to share sensitive information down 
to the people that need to have it in order to make the 
decisions and implement the measures. But it proved to me we 
have a framework that has come a long way over the last few 
years. We just need to continue to get better at using it.
    Chairman Lieberman. Do you think that DHS has adequate 
regulatory authority to ensure that the mitigation measures you 
have just talked about are being put into place throughout the 
critical infrastructure?
    Mr. Jamison. I am satisfied with our current authorities. I 
think we need to continue to make sure that we are doing 
outcome performance measures in the field to determine whether 
or not those mitigation measures are being implemented. And if 
we do not think that they are being implemented sufficiently, 
we either need to leverage the regulatory authorities or our 
partners, other agencies within the Federal Government, or ask 
for them like we did in chemical security where we asked for 
additional regulatory authority when we thought we needed it. 
But the key is to make sure we carefully monitor the results.
    One point I wanted to make about that vulnerability is 
that, for the most part, a lot of mitigation measures are low-
cost investments that could protect high-risk, expensive pieces 
of equipment. And it is in the owner's best interest to take 
those mitigation measures from a capital protection standpoint. 
It is one of the reasons we are pleased with the results so far 
about the mitigation measures. But it is something we need to 
continue to look at and monitor.
    Chairman Lieberman. I agree. Good.
    Mr. Ashley, we have talked a little bit about the Fusion 
Centers. One of the problems that State and local officials who 
have come before our Committee have identified with regard to 
the development of the Fusion Centers is that there is no 
guarantee of funding for long-term sustainment. And the 
problem, obviously, is that to work, they need to make long-
term investments in technology and even training and personnel.
    How will you work to assure the States that the Department 
remains committed to the Fusion Center program and that the 
grants that they depend on for these long-term investments will 
be there and will not suddenly disappear?
    Mr. Ashley. Right. Planning from year to year and 
consistency from year to year has been a common theme with our 
State and local partners. I think one of the best ways to 
address this from a grant programs perspective is to work from 
the programmatic side to ensure State and locals are making 
investments that have deliverable milestones and leave-behind 
capability because at any given moment we do not know where the 
budget process is going to be with next year's funds, and etc., 
for State and local. So working with them to ensure that each 
year that they are investing grant dollars, that if they are 
working toward a longer-term goal, that there is leave-behind 
at each milestone. And that is, I will bring experience and 
program management to helping to support that process.
    But it is a multi-year effort on many of these different 
issues, and we are reliant upon multiple moving parts to ensure 
year-over-year consistent funding.
    Chairman Lieberman. I hear it. Part of it is us. So the 
Committee will work very hard to assure that long-term 
sustainment as well.
    Mr. Jamison, you mentioned a little bit about contracting 
in your opening statement. As you know, the Committee held a 
hearing last month that raised serious concerns about the 
Department's reliance on outside contractors to do the 
government's work. Overuse of contractors, obviously, we are 
concerned raises the risk that the Department itself is not 
developing the institutional knowledge for the longer term and, 
at worst, will lose control of its own decisionmaking. The 
problem appears to be significant in the NPPD. Half of the 
staff of the Office of Infrastructure Protection are 
contractors; for instance, three-quarters of the positions in 
the National Cyber Security Division were contracted out.
    So I want you to describe a bit more--I know you have this 
under review--what actions you hope to take to reduce NPPD's 
reliance on contractors and really in a fundamental way how you 
intend to prepare the Directorate for the upcoming transition.
    Mr. Jamison. Yes, sir. I agree with you. I think that 
making sure that we have in-house Federal staff that can 
position ourselves for the transition and for the challenges 
that we face is absolutely crucial. Not only that, we need to 
make sure that we put a focus on retaining the key Federal 
staff that we currently have. So that is one of the reasons 
attracting and retaining the key people is a top priority for 
myself.
    I have asked that a review be done to determine in 2008, 
given as contracts expire and given our capabilities to hire 
people, how many contractor staff should be converted to full-
time Federal staff if appropriate for efficiency and 
appropriate for roles and responsibilities. We have a 
preliminary target for fiscal year 2008 to convert 150 staff 
from contractors to full-time.
    Chairman Lieberman. Good.
    Mr. Jamison. And I think most people that know me would 
tell you that I am an outcome-focused metrics type of person, 
and that is going to be one of my metrics for 2008 to make sure 
that we do that because I do believe it is a fundamental key 
point to make sure that we are more stable going into the 
transition.
    Chairman Lieberman. Good. We will obviously want to keep in 
touch with you on all that.
    Mr. Jamison, when Congress passed the Post-Katrina 
Emergency Management Reform Act over a year ago, we created the 
Office of Emergency Communications (OEC). As you know, DHS was 
supposed to submit a report to Congress within 120 days of 
enacting the law outlining the resources needed to establish 
the office.
    The Committee just received the report this week, and 
obviously we are grateful for that, but also concerned that OEC 
is not as far along as we hoped it would be at this point. And 
there are other deadlines, as you may know, that OEC also has 
to meet.
    Could you update the Committee, to the best of your 
knowledge at this point, on the status of the Office of 
Emergency Communications?
    Mr. Jamison. Yes, sir. First of all, we have faced some 
challenges in the stand-up of OEC, standing up a new 
organization and making sure that we have the staff in place 
and the leadership in place to move forward. I am glad we got 
the report up here this week. I think it is representative of 
the resources that we need and an alignment of where we need to 
focus our resources. But more importantly, over the last few 
months we have named a Deputy Director that has a long history 
of emergency communications in the field, in working with State 
and locals and being a part of that emergency responder 
community that is going to bring a lot of experience to that. 
He has been on board for, I think, about 6 weeks now. We are in 
the final processes of bringing on board, offers have been 
accepted, another--the director of that office, who also brings 
valuable State emergency communications experience. Those are 
the two biggest pieces to the puzzle, in my opinion, to taking 
this organization to the next level. Do we need to get better 
at our reporting timeliness? Yes. Do we have the pieces in 
place to start moving forward? Yes. I think we have come a long 
way in the last year, but we need to make sure we are building 
on that foundation.
    Chairman Lieberman. OK. That is hopeful.
    And this one is to you, Mr. Ashley.
    Mr. Ashley. OK.
    Chairman Lieberman. It is similar. Congress established the 
Interoperable Emergency Communications Grant Program when it 
passed the Implementing Recommendations of the 9/11 Commission 
Act. Funding for the new program was included in both the 
Senate and House homeland security appropriations bills, and we 
are really looking forward to the program beginning next year. 
This is, as you know, from a tragic real-life experience, both 
on September 11, 2001, in New York where we lost a lot of 
firefighters because of the inability to communicate with other 
first responders, and then when in Hurricane Katrina they just 
were not able to operate, let alone communicate.
    So I wanted to ask you what steps the Department has taken 
and do you intend to take to get this critically important 
Interoperable Emergency Communications Grant Program up and 
running during fiscal year 2008?
    Mr. Ashley. Yes, sir. There are a couple things there. We 
also have the PSIC grants as well that came out of Commerce, 
and ensuring that those grants are synergistic and working 
together, utilizing the same grant guidance.
    Specifically, I think in what you guys accomplished with 
the 9/11 bill and the requirement of statewide interoperability 
plans being submitted and going and working with the Office of 
Emergency Communication and looking at those statewide plans 
and ensuring investment across interoperable communications 
efforts are done in a coordinated fashion, I think you guys 
have given us a lot of guidance in that area as well.
    I think the utilization of the similar grant guidance from 
SAFECOM as far as both for PSIC and interoperable 
communications in my understanding as well is that we have 
individuals that are actually working in the Office of 
Emergency Communications as well to make sure there is that 
tight fit between the policy and the review of the statewide 
plans and then the implementation of grants. I think that the 
groundwork has already started to take place, and I look 
forward to working with Mr. Jamison to further that.
    Chairman Lieberman. Good. Obviously, we really want to see 
this up and running and beginning to turn to plug this gap 
during this coming fiscal year.
    DHS announced earlier this year that it intends to direct 
the airlines to collect biometric information, including 
fingerprints, from international travelers in order to carry 
out the air exit requirement of the US-VISIT program. Mr. 
Jamison, I wanted to ask you what is the status of the proposal 
and whether you believe it is appropriate to delegate this 
immigration and law enforcement function to the private sector.
    Mr. Jamison. Yes, sir. Currently, we are in the late stages 
of drafting a Notice of Proposed Rulemaking. We want to have 
that out in the very near future with the goal of hopefully 
having the final rule implemented by this summer, June 2008, 
and with an implementation date of December 2008, to actually 
start the biometric collection.
    We are currently in the late stages of doing final cost/
benefit analysis in preparation for that Notice of Proposed 
Rulemaking, but from a principles standpoint, we do believe 
that this is not inconsistent with the airlines' responsibility 
currently to collect passport information and other passenger 
information required for the government, and this will be 
consistent in that realm as well.
    We need to make sure we carefully evaluate the true costs 
to the airlines versus the costs to the government of doing 
that function. But we do believe that is a function that can be 
carried out most effectively by the airlines.
    Chairman Lieberman. What impact do you think the proposal 
will have on passenger processing at airports?
    Mr. Jamison. It is something that we are taking into 
consideration very carefully. It really depends upon the point 
at which a biometric will be collected. Our current thinking is 
that the check-in counter is the most efficient place to do 
that.
    Chairman Lieberman. Right.
    Mr. Jamison. We do not think that it will have a big impact 
on line delays due to the other processing that takes place, 
and while the reservations are printing and tickets are 
printing, there is a capability because it is a very short 
transaction, a matter of, I think, about 20 seconds to do the 
full biometric collection. So we do not anticipate a full 
impact. We are carefully going through that evaluation in the 
Notice of Proposed Rulemaking to make sure that we have fully 
captured the impact to the airlines and to the wait times for 
the passengers.
    Chairman Lieberman. Are the airlines opposing that idea?
    Mr. Jamison. I think they will oppose that idea, and they 
have been fairly vocal about that.
    Chairman Lieberman. Right.
    Mr. Jamison. It becomes the issue, I think, that we have to 
determine where is the best place to do that and whether or not 
we really need that information in terms of knowing who is in 
the country.
    Chairman Lieberman. Obviously, we are finding pushback in a 
lot of different areas in which we are, in the interest of 
homeland security, asking people to do things that they have 
not done before, that they thought they would never have to do, 
but we are doing it for a reason. I know there will be 
pushback. There already has been. But in the end, we want you 
to be able to say that you have set up a system that will give 
maximum protection to the American people, even if some people 
are unhappy because they have to do a little more a little 
differently than they have done before.
    DHS has reported that this whole change will be complicated 
and costly to the US-VISIT biometric exit system. Let me just 
ask you, finally, to step back and talk a little more about 
what you think the most significant challenges are in 
developing an exit system at land ports of entry. That is what 
I want to focus on for this question.
    Mr. Jamison. I think it is a significant challenge. As you 
know, at many of our border locations, we do not stop 
individuals from entering Canada at several border spots, so 
implementing an exit regime in those land borders requires a 
significant challenge and significant resources.
    I think that the process that we are about to embark on in 
air exit is going to inform us greatly on those challenges and 
at the same time will capture, I believe, about 94 percent of 
the visa waiver-eligible population that we are focused on 
capturing.
    So that learning curve and going through that process will 
help us lay out the next phase of this and the strategy that is 
going to take us into the future years of getting a land exit 
program evaluated.
    Chairman Lieberman. OK. I thank both of you. You are 
obviously both very well informed and experienced to take on 
these critical assignments. These are two positions that the 
general public probably never has heard of and we hope, in a 
way, never does hear of. But what you are about to take on is 
critically important to the security of every person in this 
country and the country overall, the government overall. So I 
appreciate it very much. You both obviously have been blessed 
with devoted and beautiful families behind you, and as I think 
they know, you are going to need them to continue to be behind 
you in the time ahead, particularly your mother-in-law. 
[Laughter.]
    I cannot tell you how important that is.
    Without objection, the record will be kept open until 12 
noon tomorrow for the submission of any written questions from 
Members of the Committee or statements for the record that you 
or others want to add. We are doing that very quick turn-around 
because it is my intention, based on the importance of these 
two positions, to bring your nominations before a Committee 
business meeting, which I believe is scheduled for next 
Wednesday, and then hopefully to move them through the full 
Senate quickly before we depart at the end of next week for our 
Thanksgiving two-week break. So be on good behavior between now 
and the end of next week. [Laughter.]
    I thank you very much, and with that, the hearing is 
adjourned.
    [Whereupon, at 9:54 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                 PREPARED STATEMENT OF SENATOR COLLINS

    The nominations we consider today encompass two critical 
responsibilities at the Department of Homeland Security: management of 
the federal programs that protect our citizens from natural or man-made 
disasters, and administration of the grant programs that help States 
and localities improve their ability to counter terrorist attacks, 
respond to natural disasters, and communicate in emergencies.
    The scope and importance of the NPPD's responsibilities are 
daunting. The NPPD is charged with:

    <bullet>  maintaining the Office of Bombing Prevention as a strong 
and active participant in the nation's efforts to counter the threat of 
terrorists using improvised explosive devices on our soil;
    <bullet>  ensuring successful implementation of the chemical-
facility security program authorized last year, due to the work of this 
Committee;
    <bullet>  assessing risks and developing prioritized inventories of 
our nation's critical infrastructure, and
    <bullet>  managing voluntary private-sector coordination programs 
to achieve the goals of the National Infrastructure Protection Plan.

    I would note that the Office of Bomb Prevention would be formally 
established and strengthened by the National Bombing Prevention Act 
that Senator Lieberman and I introduced last week.
    The second nomination is to a position within FEMA that plays a 
vital role in preparing our State and local first responders to handle 
the next major natural disaster or terrorist attack.
    The FEMA reform legislation that Senator Lieberman and I crafted in 
2006 restored preparedness grant programs to FEMA. This improved the 
agency's ability to support State and local preparedness with funds for 
planning, training, exercises, and interoperable communications.
    Grants are a vital part of our essential goal of achieving 
effective capabilities and coordination among federal, State, local, 
and other stakeholders in the preparation and response to natural 
disasters and terrorist attacks. As part of that effort, I would add, 
the Grant Programs Directorate has another critical role: ensuring that 
tax dollars are not wasted.
    Ross Ashley comes before our Committee with a long record of 
executive experience in both commercial and non-profit organizations.
    I join the Chairman in welcoming both of these nominees to this 
hearing.

                               __________

                  PREPARED STATEMENT OF SENATOR AKAKA

    I am pleased to join you today in welcoming Robert Jamison who has 
been nominated to serve as the Under Secretary of National Protection 
and Programs at DHS, and Ross Ashley, who has been nominated to serve 
as Deputy Administrator for Grant Programs at FEMA. These are important 
positions and their programs are essential to State and local 
governments trying to build effective disaster response capabilities.
    Many States are still struggling with the need to upgrade or 
supplement outdated resources, including crowded emergency operations 
centers, to establish fusion centers for effective law enforcement and 
intelligence coordination, and to ensure that adequate surge capacity 
is available in the aftermath of a natural disaster or terrorist 
attack. DHS grants are a key resource in accomplishing those tasks.
    Mr. Ashley, I cannot emphasize enough how important the effective 
and efficient administration of the grants process is to our State and 
local governments. It is my hope that, during your tenure, you will 
communicate with those recipients closely and often to ensure that 
grant guidance is clear, concise and easily understood.
    The threat of improvised explosive devices, protection of critical 
infrastructure and the possibility that our nation's power plants can 
be sabotaged because of vulnerabilities in cybersecurity are no less 
critical to the homeland security mission. I look forward to hearing 
how Mr. Jamison intends to move the NPPD from its recent establishment 
to a more mature directorate responsible for overseeing and 
implementing programs in those areas. I would also like to hear how the 
NPPD will work with State and local governments to not only ensure the 
security of critical infrastructure, but also its safety.

[GRAPHIC] [TIFF OMITTED] T8983.001

[GRAPHIC] [TIFF OMITTED] T8983.002

[GRAPHIC] [TIFF OMITTED] T8983.003

[GRAPHIC] [TIFF OMITTED] T8983.004

[GRAPHIC] [TIFF OMITTED] T8983.005

[GRAPHIC] [TIFF OMITTED] T8983.006

[GRAPHIC] [TIFF OMITTED] T8983.007

[GRAPHIC] [TIFF OMITTED] T8983.008

[GRAPHIC] [TIFF OMITTED] T8983.009

[GRAPHIC] [TIFF OMITTED] T8983.010

[GRAPHIC] [TIFF OMITTED] T8983.011

[GRAPHIC] [TIFF OMITTED] T8983.067

[GRAPHIC] [TIFF OMITTED] T8983.068

[GRAPHIC] [TIFF OMITTED] T8983.069

[GRAPHIC] [TIFF OMITTED] T8983.070

[GRAPHIC] [TIFF OMITTED] T8983.071

[GRAPHIC] [TIFF OMITTED] T8983.072

[GRAPHIC] [TIFF OMITTED] T8983.073

[GRAPHIC] [TIFF OMITTED] T8983.074

[GRAPHIC] [TIFF OMITTED] T8983.075

[GRAPHIC] [TIFF OMITTED] T8983.076

[GRAPHIC] [TIFF OMITTED] T8983.077

[GRAPHIC] [TIFF OMITTED] T8983.078

[GRAPHIC] [TIFF OMITTED] T8983.079

[GRAPHIC] [TIFF OMITTED] T8983.080

[GRAPHIC] [TIFF OMITTED] T8983.081

[GRAPHIC] [TIFF OMITTED] T8983.082

[GRAPHIC] [TIFF OMITTED] T8983.083

[GRAPHIC] [TIFF OMITTED] T8983.084

[GRAPHIC] [TIFF OMITTED] T8983.085

[GRAPHIC] [TIFF OMITTED] T8983.086

[GRAPHIC] [TIFF OMITTED] T8983.087

[GRAPHIC] [TIFF OMITTED] T8983.088

[GRAPHIC] [TIFF OMITTED] T8983.089

[GRAPHIC] [TIFF OMITTED] T8983.090

[GRAPHIC] [TIFF OMITTED] T8983.091

[GRAPHIC] [TIFF OMITTED] T8983.092

[GRAPHIC] [TIFF OMITTED] T8983.093

[GRAPHIC] [TIFF OMITTED] T8983.094

[GRAPHIC] [TIFF OMITTED] T8983.095

[GRAPHIC] [TIFF OMITTED] T8983.096

[GRAPHIC] [TIFF OMITTED] T8983.097

[GRAPHIC] [TIFF OMITTED] T8983.098

[GRAPHIC] [TIFF OMITTED] T8983.099

[GRAPHIC] [TIFF OMITTED] T8983.100

[GRAPHIC] [TIFF OMITTED] T8983.101

[GRAPHIC] [TIFF OMITTED] T8983.110

[GRAPHIC] [TIFF OMITTED] T8983.012

[GRAPHIC] [TIFF OMITTED] T8983.013

[GRAPHIC] [TIFF OMITTED] T8983.014

[GRAPHIC] [TIFF OMITTED] T8983.015

[GRAPHIC] [TIFF OMITTED] T8983.016

[GRAPHIC] [TIFF OMITTED] T8983.017

[GRAPHIC] [TIFF OMITTED] T8983.018

[GRAPHIC] [TIFF OMITTED] T8983.019

[GRAPHIC] [TIFF OMITTED] T8983.020

[GRAPHIC] [TIFF OMITTED] T8983.021

[GRAPHIC] [TIFF OMITTED] T8983.022

[GRAPHIC] [TIFF OMITTED] T8983.023

[GRAPHIC] [TIFF OMITTED] T8983.024

[GRAPHIC] [TIFF OMITTED] T8983.025

[GRAPHIC] [TIFF OMITTED] T8983.026

[GRAPHIC] [TIFF OMITTED] T8983.027

[GRAPHIC] [TIFF OMITTED] T8983.028

[GRAPHIC] [TIFF OMITTED] T8983.029

[GRAPHIC] [TIFF OMITTED] T8983.030

[GRAPHIC] [TIFF OMITTED] T8983.031

[GRAPHIC] [TIFF OMITTED] T8983.032

[GRAPHIC] [TIFF OMITTED] T8983.033

[GRAPHIC] [TIFF OMITTED] T8983.034

[GRAPHIC] [TIFF OMITTED] T8983.035

[GRAPHIC] [TIFF OMITTED] T8983.036

[GRAPHIC] [TIFF OMITTED] T8983.037

[GRAPHIC] [TIFF OMITTED] T8983.038

[GRAPHIC] [TIFF OMITTED] T8983.039

[GRAPHIC] [TIFF OMITTED] T8983.040

[GRAPHIC] [TIFF OMITTED] T8983.041

[GRAPHIC] [TIFF OMITTED] T8983.042

[GRAPHIC] [TIFF OMITTED] T8983.043

[GRAPHIC] [TIFF OMITTED] T8983.044

[GRAPHIC] [TIFF OMITTED] T8983.045

[GRAPHIC] [TIFF OMITTED] T8983.046

[GRAPHIC] [TIFF OMITTED] T8983.047

[GRAPHIC] [TIFF OMITTED] T8983.048

[GRAPHIC] [TIFF OMITTED] T8983.049

[GRAPHIC] [TIFF OMITTED] T8983.050

[GRAPHIC] [TIFF OMITTED] T8983.051

[GRAPHIC] [TIFF OMITTED] T8983.052

[GRAPHIC] [TIFF OMITTED] T8983.053

[GRAPHIC] [TIFF OMITTED] T8983.054

[GRAPHIC] [TIFF OMITTED] T8983.055

[GRAPHIC] [TIFF OMITTED] T8983.056

[GRAPHIC] [TIFF OMITTED] T8983.057

[GRAPHIC] [TIFF OMITTED] T8983.058

[GRAPHIC] [TIFF OMITTED] T8983.059

[GRAPHIC] [TIFF OMITTED] T8983.060

[GRAPHIC] [TIFF OMITTED] T8983.061

[GRAPHIC] [TIFF OMITTED] T8983.062

[GRAPHIC] [TIFF OMITTED] T8983.063

[GRAPHIC] [TIFF OMITTED] T8983.064

[GRAPHIC] [TIFF OMITTED] T8983.065

[GRAPHIC] [TIFF OMITTED] T8983.066

[GRAPHIC] [TIFF OMITTED] T8983.111

[GRAPHIC] [TIFF OMITTED] T8983.112

[GRAPHIC] [TIFF OMITTED] T8983.113

[GRAPHIC] [TIFF OMITTED] T8983.114

[GRAPHIC] [TIFF OMITTED] T8983.115

[GRAPHIC] [TIFF OMITTED] T8983.116

[GRAPHIC] [TIFF OMITTED] T8983.117

[GRAPHIC] [TIFF OMITTED] T8983.118

[GRAPHIC] [TIFF OMITTED] T8983.119

[GRAPHIC] [TIFF OMITTED] T8983.120

[GRAPHIC] [TIFF OMITTED] T8983.121

[GRAPHIC] [TIFF OMITTED] T8983.122

[GRAPHIC] [TIFF OMITTED] T8983.123

[GRAPHIC] [TIFF OMITTED] T8983.124

[GRAPHIC] [TIFF OMITTED] T8983.125

[GRAPHIC] [TIFF OMITTED] T8983.126

[GRAPHIC] [TIFF OMITTED] T8983.127

[GRAPHIC] [TIFF OMITTED] T8983.128

[GRAPHIC] [TIFF OMITTED] T8983.129

[GRAPHIC] [TIFF OMITTED] T8983.130

[GRAPHIC] [TIFF OMITTED] T8983.131

[GRAPHIC] [TIFF OMITTED] T8983.132

[GRAPHIC] [TIFF OMITTED] T8983.133

[GRAPHIC] [TIFF OMITTED] T8983.134

[GRAPHIC] [TIFF OMITTED] T8983.135

[GRAPHIC] [TIFF OMITTED] T8983.136

[GRAPHIC] [TIFF OMITTED] T8983.137

[GRAPHIC] [TIFF OMITTED] T8983.138

[GRAPHIC] [TIFF OMITTED] T8983.139

[GRAPHIC] [TIFF OMITTED] T8983.140

[GRAPHIC] [TIFF OMITTED] T8983.141

[GRAPHIC] [TIFF OMITTED] T8983.142

[GRAPHIC] [TIFF OMITTED] T8983.143

[GRAPHIC] [TIFF OMITTED] T8983.144

[GRAPHIC] [TIFF OMITTED] T8983.145

[GRAPHIC] [TIFF OMITTED] T8983.146

[GRAPHIC] [TIFF OMITTED] T8983.147

[GRAPHIC] [TIFF OMITTED] T8983.103

[GRAPHIC] [TIFF OMITTED] T8983.104

[GRAPHIC] [TIFF OMITTED] T8983.105

[GRAPHIC] [TIFF OMITTED] T8983.106

[GRAPHIC] [TIFF OMITTED] T8983.107

[GRAPHIC] [TIFF OMITTED] T8983.108

[GRAPHIC] [TIFF OMITTED] T8983.109

                                 <all>

</pre></body></html>
